                           U.S. Department of the Interior 
                               Office of Inspector General

                


                                  AUDIT REPORT




                    

                                               Photos by NPS,
                                                MMS , and OIG  
                    
                    
     
     

     
    DOI’S HU
     
     
             RRICANE REBUILDING EFFORTS

     
          Report No. C -IN-MOA-0006-2007         
     
     
                       September 2008 


 
projects from our final report. However, we continue to recommend that FWS require the
concessionaire to collect and remit insurance proceeds on the affected property.

   Please provide us with a response to the report by October 8, 2008. The response should
provide the information required in Appendix 7. The response should be addressed to:

                      Mr. Robert Romanyshyn
                      Assistant Inspector General for Audits
                      U.S. Department of the Interior
                      Office of Inspector General
                      1849 C Street, NW., MS 4428
                      Washington, DC 20240

    The legislation, as amended, creating the Office of Inspector General requires that we report
to the U.S. Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

  If you have any comments or questions regarding this draft report, please call me at (202)
208-5512.

cc:    Assistant Secretary, Fish and Wildlife and Parks
       Director, Fish and Wildlife Service
       Director, National Park Service
       Director, Office of Budget




                                                2
EXECUTIVE SUMMARY

                                          This report presents the results of the second
                                          and last of two audits relating to hurricane
                                          recovery efforts at Department of the Interior’s
                                          (DOI or Department) bureaus. During this
                                          second audit, the Office of Inspector General
                                          (OIG) visited several U.S. Fish and Wildlife
                                          Service (FWS) and National Park Service (NPS)
                                          areas affected by the hurricanes of 2005 to
                                          assess the progress being made in repairing or
                                          replacing hurricane-damaged assets.

                                          We are concerned that more than two years
    During our first audit, DOI’s 2005    after the hurricanes, NPS had made poor
    Hurricane Relief Expenditures (C-     progress in its rebuilding by the end of FY 2007.
    IN-MOA-0004-2006, March 2007),        NPS had only obligated or spent 24 percent of
    we found that DOI had effectively
                                          its $74 million of supplemental funding. We
    managed its 2005 hurricane-
                                          found many projects were incomplete or had not
    related expenditures. Specifically,
    we determined:                        even been started. Lack of prioritization and
                                          coordination could cause NPS to run out of
    ¾ The DOI bureaus had adequate        funds before all hurricane damage is fixed.
      controls in place for
      procurement of goods and            FWS made significantly more progress in its
      services in emergency situations.   rebuilding effort than NPS. At the end of FY
                                          2007, FWS had spent $145 million of its $162
    ¾ Purchases classified as
      hurricane-related were related to
                                          million (90 percent) in supplemental funding.
      hurricane response and              Our site visits showed extensive work in
      recovery, and were reasonable       progress to address hurricane damages.
      and necessary.                      However, we are concerned that FWS lacked
                                          adequate documentation supporting decisions it
    ¾ Bureaus accounted for hurricane     made to rebuild and expand certain facilities.
      expenditures accurately;
      however, there were delays in
                                          Our audit did not disclose any instances where
      the proper classification of
      expenses as hurricane-related.      FWS or NPS were inappropriately spending
                                          hurricane funds on assets not damaged in the
                                          2005 hurricane season.

We provide seven recommendations designed to improve the deficiencies we noted.

                               



                                              i
TABLE OF CONTENTS

Why We Did This Audit ........................................................................................... 1

Background ............................................................................................................ 1

Results of Audit ...................................................................................................... 2

         NPS Made Poor Progress in Rebuilding............................................................ 2

         FWS Made Significant Progress in Rebuilding, but Did Not Adequately
           Document the Rebuilding Decisions it Made ............................................... 7

         Contract Oversight ...................................................................................... 10

         Insurance on Concession Buildings ............................................................... 11

Recommendations ................................................................................................ 13

Appendix 1: Monetary Impact ............................................................................... 17

Appendix 2: Scope and Methodology ..................................................................... 18

Appendix 3: Related Reviews ................................................................................ 20

Appendix 4: Locations Visited/Contacted................................................................ 22

Appendix 5: Expanded FWS Facilities..................................................................... 23

Appendix 6: Auditee Comments and OIG Response ................................................ 25

Appendix 7: Status of Audit Recommendations....................................................... 28




         Note: Photos taken by OIG staff during site visits, unless specified in this report.




                                                           ii
WHY WE DID
         D THIS AUDIT
In respo
       onse to the devastation n caused primarily by the 2005 hurricanes
                                                               h            K
                                                                            Katrina, Rita
                                                                                        a,
and Wilmma, Congreess provided d approximately $88 billion
                                                     b     to all federal age
                                                                            encies. DO OI
was allocated approoximately $283
                              $     million
                                          n of supplemmental fundding. This additional
funding has generaated significcant public attention and
                                                     a scrutinyy of how the e relief effo
                                                                                        ort is
being managed and  d how the funds
                               f     are being
                                          b     spent.

Due to the
        t high risk of fraud associated
                               a             w disaste
                                             with       er-related expenditure
                                                                    e            es, the
Inspectoor General community
                    c            has taken steps to prrovide timelly oversightt. The
Presidennt’s Council on Integritty and Efficciency (PCIEE) coordinated efforts among the     e
agency Inspectors
        I           General. Our
                              O office participated
                                           p             in this overall PCIE efffort by
providing information on DOI recovery efforts. Add      ditionally, we
                                                                    w planned a series of
audits in
        ntended to timely revieew DOI’s diisaster-related expend    ditures. Ou  ur first auditt
addresseed the apprropriatenesss of expensses incurred  d during the initial disa aster respoonse.
This auddit addresse
                   ed the repaair and rebu  uilding of NP
                                                        PS and FWS   S facilities in
                                                                                  i the affeccted
areas.

We condducted this audit to de
                             etermine whhether DOI was appro
                                                           opriately spe
                                                                       ending
supplem
      mental fundss to repair and
                              a rebuildd assets dam         he 2005 hurricane sea
                                                  maged in th                   ason.

BACK
   KGROUND
         D

                                        The impact of thet 2005 Attlantic hurriicane seasoon
                                        was widespread   d and devastating. With
                                                                             W at least
                                        2,28 80 deaths and recorded d damagess of over $100
                                        billio
                                             on, it was th
                                                         he most acttive season
                                                                              n in recordeed
                                        histoory. Some of the grea atest impactt of the sea
                                                                                          ason
                                        was felt on the Gulf Coastt, where Hu urricane Kattrina
                                        deva astated a lo
                                                        ong stretch of coast alo
                                                                               ong Louisiaana,
                                        Misssissippi, andd Alabama.

                                   DOI facilities suustained sig
                                                               gnificant da
                                                                          amage durin ng
NPS Web
      bsite Photo off Ranger Stati
                                tion
                                   the 2005
                                       2      hurriccane seasonn. DOI’s lossses include
                                                                                      ed
  Damaaged by Hurriicane Katrina
                                   signiificant damage to 12 NPS
                                                               N parks anda preservves,
86 FWS refuges, 68
                 8 U.S. Geological Survvey (USGS) water mon    nitoring gau
                                                                          uges, and thhe
Mineralss Manageme
                 ent Service
                           e’s (MMS) Gulf
                                      G of Mexico regional office build    ding.

We focu used on FWS and NPS because th   hese bureau us received the greate
                                                                          est portion,
nearly 83 percent, of the suppplemental fuunding awa arded to DO
                                                               OI. As of September
2007, NPS and FWS had oblig   gated or spe
                                         ent approximately $16 62.6 million, or 69 perccent,
of their $236 million in supple
                              emental apppropriationss. The breaakdown by bureau is
summarrized in the following table:



                                                1
            

                               Supplemental        Amount       Percent
           Bureau                Funding *        Obligated *    Spent


           FWS                      $162            $145.0       90%
           NPS                        74              17.6       24%
           MMS                        31              27.5       89%
           USGS                       16              12.5       78%
           Total                    $283           $202.6        72%

               * In Millions

RESULTS OF AUDIT
Our audit did not disclose any instances where DOI inappropriately spent hurricane
funds on assets not damaged in the 2005 hurricane season. However, we found:

   ¾ NPS made poor progress in rebuilding hurricane-damaged properties because of
     its complicated and time-consuming project approval process.

   ¾ Lack of prioritization and coordination could cause NPS to run out of funds before
     all hurricane damage is fixed.

   ¾ FWS made significant progress in rebuilding, but did not adequately document
     the rebuilding decisions it made.

   ¾ Neither FWS nor NPS were adequately monitoring compliance with construction
     subcontracting limitations on small business contracts.

   ¾ FWS had not required the collection of hazard insurance proceeds available on a
     concessioner-operated facility that was damaged by a hurricane.

NPS Made Poor Progress in Rebuilding

We found that NPS made poor progress in its rebuilding efforts and by the end of
FY 2007, NPS had only obligated 24 percent, or $17.6 million, of its $74 million
appropriation. Nearly two years after the hurricanes struck, we found many projects
were incomplete or had not even been started. Following are some examples.




                                              2
Big Cyprress Nation
                  nal Preserv
                            ve

The Looop Road at the
                    t Big Cyp press Nationnal Preserve
                                                     e sustained d significantt damage frrom
the hurrricanes, with a $6.3 million estima
                                          ated cost to
                                                     o repair it. No progresss had been  n
made in repairing this
                   t    road, and NPS reccords indica
                                                    ated that this project was
                                                                             w not slatted
to begin
       n until FY 20010.




                                     Dam
                                       mage to Big Cypress
                                                   Cy      Loop Road
                                                                  R       still nott
                                          repaired as
                                                    a of our sitee visit.


        ands National Seasho
Gulf Isla                  ore

The visittor center at
                    a Gulf Islan
                               nds Nationaal Seashore e sustained serious dam  mage durinng
Hurrican
       ne Katrina. When we visited,
                                v       the
                                          e visitor cen
                                                      nter was stilll closed, pe
                                                                               ending the
approval to begin repairs.
                    r        NPPS had stabilized the damaged bu  uilding and was leasing  ga
temporaary building until the reepairs were
                                          e completed d.




        NPS ph
             hotos of the Visitor
                          V       Center before
                                         b      Hurriccane Katrina, just
                                                                     j   after Hurrricane Katrina
                                                                                               na, and OIG photo
                                                                                                           ph    of
                                         the visitor ceenter during our
                                                                    o site visit.
     
On Westt Ship Islan
                  nd (one of the
                             t Gulf Isla
                                       ands), everry structure
                                                             e was destro
                                                                        oyed during g the
2005 hu
      urricanes, with
                  w the excception of Fort Massachusetts. When
                                                            W     we vissited, only the
                                                                                    t
boardwaalk had beeen repaired and tempo
                                      orary comfoort stations were installled to
accommmodate visitoors.




                                                           3
    Red circles
        ci      highligh
                       ht structures on
                                     o West Ship p Island that were
                                                               w     destroyeed, as shown in the
     midd
        dle photo take en after the 2005
                                    20 hurricanees. Before an  nd after photoos are courtes
                                                                                         esy of
                NPS. The
                       T third phot oto is an OIG photo
                                                  p      of the repaired
                                                                r        boarrdwalk.
 

Jean Laffitte Nation
                   nal Historic
                              cal Park an
                                        nd Preserve
                                                  e

The histtoric cemeteery at Jean Lafitte Nattional Historical Park and
                                                                   a Preservve was badlyy
damaged during th  he 2005 hurrricanes, annd grave ma   arkers weree displaced or destroye ed.
NPS plan nned to connserve or re
                               epair an esttimated 3,4 400 grave markers
                                                                   m        and
                                                                              d the brick wall
surround ding the cemetery. When
                              W                                    ad been stabilized, butt the
                                     we vissited, the brrick wall ha
rebuildin
        ng project was
                   w still in the
                               t pre-planning phasse.




          Jean Lafitte:: OIG photoss of the condittion of the daamaged wall and
                                                                            a grave maarkers during
                                                   o site visit.
                                                   our
NPS’ Co
      omplicated Constructiion Plannin
                                     ng and App
                                              proval Proce
                                                         ess Hampe
                                                                 ers Progres
                                                                           ss

We belieeve that NPPS’ lack of progress
                               p        maay be prima
                                                    arily attributed to its complicated
construcction planning and app proval proce
                                          ess. NPS generally
                                                    g          usses a 5-year planning and
                                                                                       a

                                                      4
approval process for construction projects. NPS officials told us that any hurricane-
related projects totaling more than $500,000 were processed through their standard 5-
year construction planning process. This construction planning and approval process
involves 49 steps, divided into phases:

   ¾   Planning phase has 9 steps,
   ¾   Pre-design phase has 16 steps,
   ¾   Design phase has 14 steps,
   ¾   Construction phase has 5 steps, and
   ¾   Post-construction phase has 5 steps.

NPS management told us that the process can be accelerated for emergency projects,
and cited that in most cases, the planning and design phase for the hurricane projects
had been reduced to 1½ years rather than the standard 3 years. Additionally, NPS
stated that the standard 5-year planning process had some additional evaluation steps
which were not applied to hurricane related projects. However, despite these
measures, significant rebuilding had not occurred over two years after the hurricanes.
According to NPS officials we talked to, the time consuming process has caused
bottlenecks in construction projects and has significantly delayed progress in the
rebuilding effort.

After the 2005 hurricanes, NPS identified an immediate need for emergency funds, and
Congress responded with two supplemental appropriations. While NPS needs to ensure
that it receives the best value for contracted goods and services, some of the delays we
noted seem excessive. In our view, NPS is not justifying its need for this emergency
funding and is jeopardizing its credibility for future requests by not utilizing these funds
in a timely manner.

Lack of Prioritization and Coordination Could Cause NPS to Run Out of Funds Before
All Hurricane Damage is Fixed

Southeast Regional Office personnel and a committee of park representatives
established a priority listing for all hurricane projects, and identified the top 40 priorities
as health and safety related. However, we noted instances where lower priority
projects were completed, while higher priority projects remained unfinished. For
example, NPS had not completed its top five priority health and safety projects, but had
completed several of its lowest priority projects.

We also noted a lack of coordination between the personnel that maintain the priority
list and the personnel overseeing project completion. The priority list is maintained in
the Southeast Regional Office, but the projects were assigned to the Denver Service
Center (DSC) or the parks for planning and design. However, project managers are not
accountable for completing projects in order of priority.




                                               5
This lack of prioritization and coordination
                                                 According to NPS records, NPS only completed 8 of the 
could cause NPS to run out of money
                                                40 projects that it identified as health and safety issues.  
before all hurricane-related damage is
                                                     In fact, only 2 of the top 10 priorities had been 
repaired. NPS officials estimate that a
                                                  completed as of November 2007.  Un‐repaired assets 
project’s ultimate cost could be as much as     included a marina at Gulf Islands National Seashore and 
35 percent higher than the damage               an historic house at Jean Lafitte National Historical Park 
estimate currently being used. Based on                                and Preserve.
this estimate, we believe that NPS will not
have sufficient funds to complete all
hurricane projects. NPS’ list of hurricane-
related projects totaled approximately $62
million. If projects increase by the
estimated 35 percent, NPS will need in
excess of $80 million to complete all
hurricane projects, which is more than the                                                             
$74 million in supplemental funding
received. Without better coordination and        NPS Malus Beauregard House at Jean Lafitte National 
                                                                       Historical Park
accountability for project prioritizations,
NPS is unable to ensure that all significant
operational and functional needs will be restored at the affected parks.

Furthermore, NPS did not have a finalized inventory of hurricane projects, and was
continuing to add new projects to its approved inventory two years after the occurrence
of the storms. In October 2006, the Southeast Regional Office was instructed by the
Washington Area Comptroller‘s Office to allocate $4.5 million for projects in the Gulf
Islands National Seashore regardless of the regional priority assigned. This included
one project that was not even on the original priority listing. In 2007, five projects
totaling $1.3 million were added to the priority list, per the instruction of the Southeast
Regional Office Director at that time. Finally, we found that NPS was considering the
addition of another $16.3 million project to rebuild the Flamingo Lodge in Everglades
National Park to its inventory.

Although the Flamingo Lodge was damaged by the 2005 hurricanes, NPS originally
decided not to use hurricane funds to reconstruct the lodge because the building
needed to be redesigned before being rebuilt. According to the park’s Deputy
Superintendent, the concessioner and the park had determined that the existing lodge
was not economically viable because revenues did not exceed operating costs. The
park acknowledges that it is not economical to simply replace the Flamingo Lodge, and
is considering various options to redesign the overnight accommodations at the park.
 
 
 
 
 
 

                                                    6
     FLAM
        MINGO L ODGE , E VERGLADES N ATIONAL PAR
                                               RK         A project to rebuild
                                                                          r       the Flamingo
                                                          Loodge was en   ntered into the hurrica ane
                                                          invventory in 2006
                                                                          2     as a “placeholde
                                                                                      “             r”
                                                          beecause of in nterest in ke eeping this
                                                          faccility available for visittors. Later,, in
                                                          Ma arch 2007 thet project was delete    ed
                                                          fro
                                                            om the list because NP     PS decided to
                                                          usse line item constructio   on funding to
                                                          rebuild the lo odge. As off August 20   007,
                                                          the project re  eappeared on the list.
                                                          When we bro    ought this isssue to NPS  S’
                                                          atttention in November
                                                                         N            2
                                                                                      2007,  they
                                                          assserted thatt the projecct had been   n
   Aeriall photo from NPS
                       N website, Flamingo Lod  dge
                 Post-HHurricane Willma
                                                          removed from   m the hurriccane list an nd
                                                          that NPS doe   es not intend to use
hurrican
       ne funds to rebuild the    e Flamingo Lodge.
                                                 L       How wever, NPS  S did not no otify DOI’s
budget office
         o       of its intent to re eallocate fu
                                                unding to otther projeccts. Althoug    gh this projject
was included in NP    PS’ original damage
                                     d        esttimates, thee use of hu urricane fun nding at thiss
time to replace
          r         or redesign
                       r         the lodge wo   ould severelly hinder NP  PS’ ability to
                                                                                      t complete  e
other prrojects for which
                       w      suppllemental fu unding was received.

FWS Made
    M     Sig
            gnificant Progresss in Rebu
                                      uilding, but
                                               b Did Not
                                                       N
Adequ
 
    uately Do
            ocumentt the Rebbuilding Decisions
                                      D        s it Made
                                                       e

We foun nd that FWS  S made sign nificantly more
                                             m     progre
                                                        ess in
its rebuilding effortt than NPS. At the end   d of FY 20007,
FWS had  d spent $14 45 million of
                                o its $162 million
                                              m      (90
percent)) in supplemmental fund ding. We visited some    e of
the mosst significantly damage  ed refuges to t assess FWWS’
progresss. At the Mississippi
                   M            S
                                Sandhill   Crane National
Wildlife Refuge, FWWS had finisshed repairss to its
Fontainbbleau Naturre Trail, brinnging it intoo compliancce with
handicap p accessibillity standards. FWS had also nea    arly
complete ed construcction of a new
                                n     visitor center
                                              c      and                Fountainbl
                                                                                 bleau Nature Trail
                                                                                                 T   –
office co
        omplex at th he Mississip
                                ppi Sandhilll Crane Nattional        Mississippi Saandhill Crane National
                                                                     M                            N
Wildlife Refuge and d had substtantially com  mpleted two                      Wilddlife Refuge.
refuge residences at a the J.N. “Ding”
                                 “        Darlling Nationa
                                                         al Wildlife Refuge
                                                                     R        in Florida.




                                                    7
 Concesssion Building during
                      d       our site
                                    te visit to        New Employee
                                                       N          ee Housing at J.N. “Ding”
J.N. “Ding
        ng” Darling Naational Wildlife
                                    fe Refuge            Darling Nattional Wildlifee Refuge

FWS Sou
      utheast Re
               egion’s Exe
                         ecutive Ove
                                   ersight Team Ensured
                                                      d that Progrress Was Made
                                                                           M

Much off FWS’ succe ess in addrressing rebuuilding needds can be attributed
                                                                  a            to
                                                                                o the creatiion
of the So
        outheast Reegion’s Exeecutive Oversight Team   m (EOT) wh  hich was responsible fo  or
decisionmaking for rebuilding projects. ThisT    team consisted
                                                       c          off high-levell regional
personnel from refuuges, fisherries, ecologgical service
                                                       es and budg get and adm  ministration
                                                                                           n.
The teamm met wee ekly to revie
                              ew project anda financia al status ass well as to formalize and
                                                                                           a
oversee the implemmentation ofo acquisitio on plans. The team wa    as supporte ed by the
Emergen ncy Recoveery Team (E ERT) that cllosely moniitored and tracked
                                                                    t        actual
construcction progre
                   ess. The ER  RT includedd a senior program
                                                       p         maanager from m the Division
of Refugges, as well as contracct specialists, engineerrs, architectts, and a saafety and
health expert.
       e

EOT/ERT  T memberss told us tha   at their prim
                                              mary conce erns were too ensure that the
hurricanne funding was
                     w quicklyy allocated to  t projects and that th he projects proceeded in a
timely manner.
        m          Thhe EOT/ERT  T moved qu  uickly to ide
                                                         entify the siggnificant da
                                                                                  amage and
finalize a listing of projects tha at required funding. EOT/ERT
                                                          E         m
                                                                    members     acknowledged   d
that the original listting of projjects submitted for sup pplemental funding wa   as based on n
preliminary informa  ation and th hat the commplete list of
                                                         o projects was
                                                                      w not fina  alized until
after mo ore detailedd inspectionns and cost estimates could
                                                          c      be prrepared. With
                                                                                 W
approxim mately 90 percent
                     p        of itts supplemeental fundss obligated at the end of FY 2007  7,
FWS was confidentt that the amount of supplementa         al funding it received would
                                                                                  w      be
        nt to comple
sufficien            ete its identtified projeccts.

FWS Lac
      cked Adequ
               uate Docum
                        mentation to
                                  t Supportt its Rebuild
                                                       ding Decisiions

We foun nd three insstances in which
                                 w      FWS did not adeequately do
                                                                 ocument its decision to   o
rebuild facilities
        f          insstead of rep
                                 pair them. In each insstance, FWSS used hurrricane funds to
build a larger facilitty than the damaged one
                                            o and did  d not documment its jusstification fo
                                                                                           or
expandin ng the facility. Use off hurricane funds to exxpand facilities was no
                                                                             ot allowed
under gu uidance issued by the FWS Direcctor in Febru  uary and Juuly 2006. In
                                                                             I two

                                                  8
memorandums, the Director stated: “Funds appropriated for repairing damaged Service
facilities are available only to restore land, facilities and equipment to the approximate
conditions current at the time of the storm damage. The funds are not available for
improvements or upgrades to facilities and equipment.” The three instances included
(see Appendix 5 for a full discussion of each example):
  
      ¾ The Visitor Center/Headquarters building at Mississippi Sandhill Crane National
          Wildlife Refuge was being rebuilt at a cost of approximately $2.5 million,
          increasing in size from 4,000 square feet to 10,455 square feet.

    ¾ A concessions building at J.N. “Ding” Darling National Wildlife Refuge was being
      rebuilt at a cost of approximately $1.8 million, increasing in size from 2,520
      square feet to 4,519 square feet.

    ¾ Two employee residences at J.N. “Ding” Darling National Wildlife Refuge were
      being rebuilt at a cost of approximately $1.6 million, increasing their total living
      space from approximately 2,000 square feet to approximately 4,000 square
      feet.

Based on the contract cost per square foot for construction, we estimate that FWS
spent approximately $2.9 million in hurricane funds to expand these buildings in
contradiction of the Director’s guidance disallowing improvements or upgrades.

When we discussed this issue with members of the EOT/ERT, they stood by their
decisions to rebuild and expand these facilities. In each case, they provided anecdotal
evidence supporting their decisions to rebuild and expand the facilities. For example,
factors supporting expansion included the desire to replace destroyed buildings with
new facilities that met the current needs of the refuge and the desire to deploy
standard prototype models for visitor centers and residences.

EOT/ERT members acknowledged that they lacked written documentation and analysis
supporting many of their decisions. They stated that the scale of this emergency was
unprecedented and that their priority was to get the money allocated and the projects
started. In this emergency situation, documentation became less of a priority. While
we agree with the EOT/ERT’s priorities, we believe that adequately documenting
management decisions is necessary to ensure that funds are appropriately spent.
EOT/ERT members stated that more recent decisions have been better documented
and that they planned to prepare guidance on documentation for future emergencies
based on lessons learned from the 2005 hurricanes.

EOT/ERT members also acknowledged that the expansion of facilities was not
consistent with the Director’s guidance. They agreed that it was generally inappropriate
to use supplemental funding for improvements and upgrades, however, they felt that in
some cases such use would be justified. For example, it should be acceptable to
replace a destroyed building with the current standard prototype, although the

                                            9
prototype may be larger than the original building. They stated that they would seek to
develop more thorough guidance for when expansion of facilities would be acceptable
in future situations.

Safety of FWS Employees

At the time of our site visits, Mississippi Sand Hill Crane employees were still working in
the damaged visitor center/headquarters building and the J.N. “Ding” Darling
concessioner was still occupying the damaged concession building. We expressed
concern to FWS for their safety given that the damages to both buildings were
considered extensive enough to require rebuilding of the facilities. To address our
safety concerns, FWS conducted inspections on the buildings subsequent to our site
visits and determined them safe for the employees and concessioner to occupy during
the construction of the new facilities.

Contract Oversight

FWS and NPS did not have adequate processes to monitor construction subcontracting
limitations outlined in their contracts. Further, during our review of NPS, we found an
inappropriate contracting action at the DSC.

According to the Federal Acquisition Regulation (FAR), general construction contracts
with small businesses under the 8(a) Program must include clause 52.219-14. This
clause requires that employees of the 8(a) firm perform at least 15 percent of the cost
of the contract, not including the cost of materials. Under the Partnership Agreement
with the Small Businesses Administration (SBA), DOI personnel are delegated
responsibility for monitoring contractor performance to ensure compliance with the
terms of the clause.

NPS and FWS personnel indicated that they did not monitor compliance with this clause
because they either did not know how, or believed that SBA was responsible for
monitoring ongoing compliance. FWS management stated that it is a known
requirement that it must monitor the percentage of performance by the prime
contractor (15 percent in the case of general construction) and this monitoring is
typically performed at the onset of a contract through review of proposal costs and at
various intervals throughout the life of the contract. FWS stated that contract
specialists review monthly payrolls to ensure the contractor’s employees are working on
the job. However, we found:

   ¾ No formal policies requiring FWS contracting officials to monitor compliance with
     this requirement.

   ¾ No evidence that FWS contracting officials actually monitored compliance with
     this requirement. While contracts we reviewed included payrolls from the prime
     contractor and subcontractors, there was no documentation indicating that FWS

                                            10
      contracting officials reviewed those payrolls to determine compliance with
      subcontractor limitations.

   ¾ One FWS contract we reviewed contained documentation indicating the primary
     contractor had not performed any of the work under the contract.

   ¾ A contract specialist and the acting chief of contracting in the Southeast Regional
     Office for FWS were not aware of any formal policies relating to subcontractor
     monitoring, and did not believe this monitoring was being performed after the
     initial contract award.

We discussed this issue with FWS Southeast Region management who indicated that
they were now aware of this issue and would develop a formal process for monitoring
contractor compliance with this requirement.

We also noted a contracting concern when we conducted our work at NPS. Specifically,
for Task Order T200007A005, the DSC inappropriately made a payment to a
subcontractor that was not identified in the contract as an approved subcontractor.
DSC employees told us that they approved the payment because a contracting specialist
at the NPS Southeast Regional Office had represented that the contract had been
amended to include that subcontractor. However, this modification had not been made.
Additionally, DSC approved the payment to the unauthorized subcontractor at a
substantially higher rate than the approved contract rates. Specifically, the
subcontractor “project manager” was paid at a rate of $161 per hour when price
schedules for other project managers showed that they received an average of $86.42
per hour.

Insurance on Concession Buildings
FWS allows private businesses to operate concessions at wildlife refuges and requires
concession owners to maintain property insurance to protect the businesses in the
event of natural disasters. However, we found an instance where the FWS did not
require a concessioner to collect insurance proceeds on an insured building.

We noted that the concessioner, Tarpon Bay Explorers, at J.N. “Ding” Darling National
Wildlife Refuge, was required by FWS to carry real property hazard insurance. In a
2004 hurricane, the concession building was damaged, but Tarpon Bay Explorers did
not file a claim against this insurance policy and did not collect proceeds to repair or
replace the concession building. Instead, FWS is using supplemental appropriations for
the cost of rebuilding the facility.

Even though FWS concessioners are not allowed to own any part of FWS concession
facilities, FWS Director's Order No. 139, dated November 7, 2001, requires
concessioners to maintain real property insurance. This Order requires all concession
contracts include a clause addressing property damage insurance for replacement value

                                           11
of the concession facility. Accordingly, the concession contract for J.N. “Ding” Darling
includes two clauses relating to insurance:

      D) Property Insurance
      In the event of loss, the Concessioner shall use all proceeds of such
      insurance to repair, rebuild, restore, or replace Concession facilities
      and/or personal property utilized in the Concessioner’s operations
      under this Contract, as directed by the Contracting Officer. . .

      Exhibit H, Insurance Requirements
      Hazard Insurance: The Concessioner will be required to provide
      fire/hazard/wind/flood tidal surge insurance on the Administration
      building during the term of the contract. The square footage of the
      building is 2,044 square feet. The name[d] insured parties under the
      policy shall be the Concessioner and the United States of America.

To date, FWS has not required this concessioner to collect the insurance proceeds.
FWS has asserted that the concessioner was only required to carry insurance on its
business property. However, we disagree as the FWS Director’s Order No. 139 requires
insurance on real property. Our legal counsel also determined that collection of the
insurance proceeds is appropriate and would be sound financially. Had the
concessioner submitted a claim, the proceeds would have been about $153,000.




 




                                            12
RECOMMENDATIONS
We recommend:

  1. NPS establish a dedicated project management team to oversee and coordinate
     hurricane-related projects through completion. This team should:

        a. Coordinate rebuilding efforts among relevant divisions including safety,
           engineering, procurement, and finance divisions to ensure that the highest
           priority projects are completed first.

        b. Establish a reasonable timeline for completion of all current and future
           hurricane projects funded by supplemental appropriations.

     NPS’ Response to the Recommendation:
     NPS agreed with our recommendation’s intent, but suggested that we modify our
     wording to be “NPS train and prepare a project management team that, in the
     event of hurricane-related events, will be dedicated to oversee and coordinate
     hurricane-related projects.” NPS stated that it had established a program to
     manage storm and flood damage recovery, with an immediate emphasis on 2005
     hurricane projects. Further, it stated that a multi-disciplinary team is
     coordinating high priority rebuilding efforts among the parks, Regional Office
     Divisions, and the Denver Service Center. This team is in the process of
     formulating a comprehensive timeline for the 2005 hurricane projects.

     IG Analysis of NPS’ Response:
     NPS is taking the actions necessary to address this recommendation, as worded.

  2. NPS develop and implement policies and procedures that expedite the
     construction process for projects related to future emergency funding.

     NPS’ Response to the Recommendation:
     NPS agreed with our recommendation and stated that it was in the process of
     analyzing existing policies and procedures for storm damage recovery, and is
     preparing a draft report for expedited procedures. It further stated that it would
     evaluate opportunities to expedite construction processes in emergency recovery
     projects.

     OIG Analysis of NPS’ Response:
     NPS is taking the actions necessary to address this recommendation.




                                         13
3. DOI should work with the bureaus to develop a process that ensures timely
   reporting of changes to supplemental funding project allocations to DOI’s budget
   office, the Office of Management and Budget, and Congress.

   DOI’s Response to the Recommendation:
   The Office of Budget concurred with our recommendation and will work with the
   bureaus to develop guidance, as well as a process and procedures on the timely
   reporting of supplemental funding allocations. The Department will also develop
   guidance on reporting requirements for reprogramming and scope changes of
   projects funded through supplemental appropriations.

   OIG Analysis of DOI’s Response:
   The Department is taking the necessary action to address this recommendation.

4. FWS develop and implement policies that require:

      a. A cost-benefit analysis for decisions to rebuild or repair damaged
         property.

      b. A needs-based analysis to justify expansion or capital improvement of
         damaged property.

      c. A health and safety survey to ensure that a damaged building is safe for
         occupancy.

   FWS’ Response to the Recommendation:
   FWS concurred with our recommendation, and agreed to develop and implement
   policies that addressed these three areas, including new guidance that will
   identify the reviews to be completed and how resulting decisions should be
   captured and documented.

   OIG Analysis of FWS’ Response:
   FWS is taking the necessary action to address this recommendation.

5. FWS and NPS develop and implement procedures, including training, for ensuring
   that contracting officers comply with all applicable requirements under the SBA
   Partnership Agreement, including monitoring contractor performance.

   NPS’ Response to the Recommendation:
   NPS believes that it is already monitoring contractor performance through
   processes such as the pre-construction briefing, Davis Bacon Act wage
   interviews, labor checks and surveillances, submission of weekly payrolls, SF
   1413 Statement and Acknowledgment, and Contracting Officer's Representative's
   on-site presence.  It also stated that the Denver Service Center has scheduled
   training that will cover the Small Business Association Partnership Agreement


                                       14
   and, in particular, monitoring compliance with the "Limitations on
   Subcontracting" clause.

   FWS’ Response to the Recommendation:
   FWS did not concur with our finding, but did agree that it would be prudent to
   develop more formal procedures and training material covering the requirements
   of SBA Partnership Agreement and FAR clause 52.219-14, Limitations on
   Subcontracting.

   OIG Analysis of NPS’ and FWS’ Response:
   As noted in our audit report, we found instances where FWS personnel
   responsible for the oversight of contracts either did not regularly monitor 8(a)
   compliance (beyond the initial award) relating to sub-contractors, or believed
   that SBA was responsible for the monitoring. Further, we found an instance
   where data in a contracting file indicated that the primary contractor had not
   completed any of the work on the contract.

   We are suggesting that formalized procedures and/or training on those
   procedures should be performed. Because FWS agrees that formal procedures
   and training are necessary, and NPS states that it plans to conduct a training
   course on this issue, we believe that both bureaus are taking the necessary
   actions to address this recommendation.

6. FWS require the concessioner to collect insurance proceeds for the concession
   building at J.N. “Ding” Darling National Wildlife Refuge and use those proceeds
   to rebuild the damaged facility.

   FWS’ Response to the Recommendation:
   FWS did not concur with this recommendation and maintains that these
   insurance proceeds should not be collected because it would “impose
   unreasonable cost burdens on any concessioner to provide insurance on a
   building that FWS considers self-insured.” In addition, FWS’ response claims that
   “it was not the intent of the Service to have total facility replacement coverage
   but, rather to have coverage for the concessioner’s equipment investments and
   personal loss items.”

   OIG Analysis of FWS’ Response:
   At the time of the 2005 hurricanes, FWS’ policy required that concessionaires
   carry real property hazard insurance on assets they operated, regardless of
   ownership. Whether this policy was reasonable or not is the subject of our
   Recommendation 7. Because insurance was required and the proceeds are
   available to help reduce the financial impact of rebuilding this asset, we maintain
   that these proceeds should be collected.




                                        15
    7. FWS re-evaluate its policy requiring concessioners to carry real property hazard
       insurance.
 
       FWS’ Response to the Recommendation:
       FWS concurred and is proposing to revise its concession policy to require
       insurance only on a concessionaire’s personal property.

       OIG Analysis of FWS’ Response:
       FWS is taking the necessary action to address this recommendation.
 




                                           16
                                                 Appendix 1

MONETARY IMPACT

Issue                                   Underpaid Revenues

Insurance proceeds not collected                 $153,000
for hurricane damage to insured
property.

TOTAL                                            $153,000


 




                                   17
                                                                             Appendix 2

SCOPE AND METHODOLOGY
We reviewed efforts related to repairing and rebuilding DOI assets damaged during the
2005 hurricane season. Our fieldwork was conducted from March 2007 through
December 2007. Our scope included NPS and FWS. We selected these bureaus
because they sustained the greatest damage and received nearly 83 percent of the
supplemental funding given by Congress. During the course of our audit fieldwork, we
issued six Notices of Potential Findings and Recommendations (NPFR) and considered
FWS’ and NPS’ responses in writing this audit report.

To accomplish our objectives, we:

   ¾ Reviewed applicable laws and regulations, including the Federal Acquisition
     Regulation, departmental regulations, and bureau guidance.

   ¾ Reviewed the legislation used to provide the hurricane-relief supplemental
     funding to determine any compliance requirements.

   ¾ Conducted site visits and interviewed staff from DOI and its bureaus.

   ¾ Reviewed bureau financial records, asset management systems, prioritization
     lists, and project management reports to assess the adequacy of the bureau’s
     oversight of hurricane-related repair and rebuilding efforts.

   ¾ Reviewed prior audit reports, President’s Council on Integrity and Efficiency
     reports, and various other reports issued by the Department and its bureaus
     providing suggested improvements for managing the hurricane relief efforts.

   ¾ Reviewed the DOI’s Strategic Plan for fiscal years 2003-2008, and found that
     there were no specific goals or measures related to hurricane relief efforts.

Our review of internal controls was limited to management’s assessment of damage
related to the 2005 hurricanes and the appropriateness of the obligation of
supplemental funding to projects identified.

We selected the sites to visit based on the following criteria:

   ¾ We attempted to visit a representation of sites from both FWS and NPS.

   ¾ We considered the level of damage sustained at each site and attempted to
     select those sites that received the highest level of damage.




                                            18
   ¾ We selected sites reported as having obligated or spent the greatest amount or
     the least amount of supplemental funding received.

   ¾ In order to achieve efficient use of our travel budget and resources, we also
     considered the geographic locations of parks and refuges, and selected refuges
     and the parks within close proximity of each other.

   ¾ We also visited J.N. “Ding” Darling National Wildlife Refuge, which was damaged
     in the 2004 hurricane season, and received funds to repair/rebuild at that time.
     Although our initial scope only included the 2005 hurricane season, issues at this
     refuge came to our attention during this audit and we expanded the scope of our
     audit to include this refuge.

We selected a judgmental sample of contracts to review at each of the sites visited for
NPS and FWS. We selected an additional judgmental sample of contracts from FWS'
inventory of hurricane-related contracts based on a dollar threshold and other
applicable risk factors. NPS did not have an inventory of hurricane-related contracts.
We evaluated these contracts to determine if they were allowable within applicable
guidelines.

We conducted our audit in accordance with Government Auditing Standards, issued by
the Comptroller General of the United States.




                                           19
                                                                             Appendix 3

RELATED REVIEWS
We reviewed audit reports issued by other Federal agencies that address issues related
to our audit.

   ¾ In July 2007, the President’s Council on Integrity and Efficiency (PCIE) issued the
     third in a series of reports titled Oversight of Gulf Coast Hurricane Recovery – A
     Semiannual Report to Congress. The focus of the report was identifying the
     progress made on the transition and recovery from the 2005 hurricanes. Each
     agency impacted by the hurricanes provided a status of their recovery efforts.
     Key issues cited include:

               •   Hurricane relief efforts were at the 19 month mark.

               •   1,012 reviews had been conducted and 2,308 investigations had
                   been opened.

               •   Inspectors General had reviewed 775 contracts valued at over $13
                   billion, and had identified $150 million in questioned costs and $58
                   million in unsupported costs.

               •   Inspectors General efforts had made the U.S. better poised for
                   future disasters, and had detected and stopped a variety of crimes.

               •   Inspectors General efforts had improved communication and
                   collaboration across all agencies and from the Federal to state and
                   local levels of government.

   ¾ In March 2007, we issued a report titled DOI’s 2005 Hurricane Relief
     Expenditures (Report No. C-IN-MOA-0004-2006). We found that:

               •   The DOI bureaus had adequate controls in place for procurement of
                   goods and services in emergency situations.

               •   Purchases classified as hurricane-related were related to hurricane
                   response and recovery, and were reasonable and necessary.

               •   Bureaus accounted for hurricane expenditures accurately; however,
                   there were delays in the proper classification of expenses as
                   hurricane-related.

   ¾ In April 2006, the Government Accountability Office (GAO) issued a report titled
      Contract Management: Increased Use of Alaska Native Corporations’ Special 8(a)

                                           20
       Provisions Calls for Tailored Oversight (Report No. GAO-06-399). GAO found
       that the acquisition agencies reviewed, including the DOI, did not always comply
       with certain requirements when awarding sole source 8(a) contracts to Alaska
       Native Corporations. The key requirements addressed were notifying the SBA of
       contract modifications and monitoring the percent of work that is subcontracted.

    ¾ In November 2006, the PCIE issued a report titled Oversight of Gulf Coast
      Hurricane Recovery – A Semiannual Report to Congress. The key issues
      pertaining to procurement were lessons learned by federal agencies in the
      aftermath of the hurricanes. The report suggested that agencies:

                •   Use advanced contracts.

                •   Monitor post-disaster procurement.

                •   Provide sufficient staff to meet mission requirements.

    ¾ In November 2005, the GAO issued a report titled Hurricanes Katrina and Rita
      Contracting for Response and Recovery Efforts (Report No. GAO-06-235T). The
      key issues in this report were that agencies must have:

                •   Sound acquisition plans.

                •   Sufficient knowledge to make good business decisions.

                •   The means to monitor contractor performance and ensure
                    accountability based on a preliminary conclusion to ensure good
                    contracting outcomes.

    ¾ In November 2005, the GAO issued a study titled Hurricanes Katrina and Rita:
       Preliminary Observations on Contracting for Response and Recovery Efforts
       (Report No. GAO-06-246T). GAO reported that the acquisition functions at
       several agencies are on GAO’s high-risk list, indicating a vulnerability to fraud,
       waste, abuse, and mismanagement. Therefore, GAO planned to review
       contracts supporting hurricane recovery efforts to assess the overall performance
       of the federal government contracting environment.
 




                                           21
                                                                       Appendix 4

LOCATIONS VISITED/CONTACTED
Department of the Interior:
   Office of Acquisition and Property Management Washington, D.C.*
   Office of the Solicitor                       Atlanta, GA*
   Office of Budget, Policy Management           Washington, D.C.*
     and Budget


Minerals Management Service:
    Procurement Division                            Reston, VA*

U.S. Geological Survey:
     Administrative Policy and Services             Reston, VA*

National Park Service:
    Gulf Islands National Seashore                  Mississippi
    Big Cypress National Preserve                   Florida
    Jean Lafitte National Historical
      Park and Preserve                             Louisiana
    Denver Service Center                           Denver, CO
    Southeast Regional Office                       Atlanta, GA
    Washington Area Service Office                  Washington, DC*
    Everglades National Park                        Florida*


U.S. Fish and Wildlife Service:
     J.N. “Ding” Darling National Wildlife Refuge   Florida
     Southwest Louisiana National Wildlife          Louisiana
       Refuge Complex (Lacassine, Sabine, and
       Cameron Prairie Refuges)
     Mississippi Sandhill Crane National            Mississippi
       Wildlife Refuge
     Visitor Services                               Arlington, VA*
     Office of Information Management               Arlington, VA*
     Division of Engineering                        Arlington, VA*
     Division of Budget                             Arlington, VA*
     Region 6 Financial Division                    Lakewood, CO
     Southeast Regional Office - Region 4           Atlanta, GA
     Southwest Regional Office - Region 2           Albuquerque, NM*


* Contacted via telephone

                                           22
                                                                             Appendix 5

EXPANDED FWS FACILITIES
Mississippi Sandhill Crane Visitor Center and Headquarters Building

FWS is rebuilding this facility with hurricane funds at a cost of approximately $2.5
million, rather than make repairs. We found that the EOT did not adequately document
its decisions to 1) rebuild rather than repair the facility and 2) expand the facility from
4,000 square feet to 10,455 square feet.

During our site visit to the Mississippi Sandhill Crane National Wildlife Refuge, we toured
the damaged facility. Refuge staff showed us that a portion of the roof was sagging
and another portion of the roof had been temporarily covered by a tarp. Refuge staff
said that the region had decided that it was more cost effective to rebuild the facility, at
a cost of approximately $2.5 million, rather than make repairs. However, the existing
existing estimate to repair the facility was $945,076. We found no written
documentation supporting the decision to rebuild rather than repair the facility.

When we discussed this facility with members of the EOT, they stood by their decisions
to rebuild and expand this facility. They stated that in the long run, it was a better
business decision to build a new building than to invest almost $1 million repairing an
older building without substantially increasing its anticipated useful life. Concerning the
expansion, EOT members stated that they chose to utilize standard prototype plans
developed for these facilities. There are three standard prototypes (small, medium,
large) based on factors such as visitation levels. The EOT chose the medium sized
prototype (10,655 square feet) for the replacement building rather than the small
prototype (6,400 square feet) which would still have been larger then the original 4,000
square foot building. The EOT members stated that they chose the medium prototype
based on their understanding of the needs of the refuge. However, there was no
formal documented analysis of needs performed at the time to support their decision.
Based on the contract cost per square foot for this building, we estimate that FWS
spent $1.6 million to expand this building.
J.N. “Ding” Darling National Wildlife Refuge, Concession Building

FWS is rebuilding this facility with hurricane funds at a cost of approximately $1.8
million, rather than make repairs. We found that the EOT did not adequately document
its decisions to 1) rebuild rather than repair the facility and 2) expand the facility from
2,520 square feet to 4,519 square feet.

During our site visit to the J.N. “Ding” Darling National Wildlife Refuge, we toured the
concession building damaged by a 2004 hurricane. According to refuge managers, FWS
evaluated the possibility of repairing concession retail space and living quarters, but
decided to replace the damaged building. FWS did not provide an estimate of the cost
to repair the facility and bring it into compliance with current building codes. The new
building will be 2,000 square feet or 80 percent larger.

                                            23
When we discussed this facility with members of the EOT, they stood by their decisions
to rebuild and expand this facility. They indicated that the facility was significantly
damaged, requiring replacement. Concerning the expansion, EOT members stated that
the new building actually replaced two damaged facilities: 1) the original concession
facility and 2) a 2,405 square foot “pole shed” that the concessioner had used for
storage of equipment. Therefore, the EOT considered the new facility to be comparable
to the two facilities it replaced; 4,519 square feet for the new structure versus 4,975
square feet for existing two structures. We disagree with this conclusion. The new
building is elevated and the storage area will now be underneath the building. That
storage space is in addition to the 4,519 square feet of finished space in the new
building. The EOT members also stated that the existing building did not meet the
current needs of the operators – thus requiring the expansion. The EOT was unable to
provide us with any written documentation supporting their decisions. Based on the
contract cost per square foot for this building, we estimate that FWS spent $810,355 to
expand this building.
J.N. “Ding” Darling National Wildlife Refuge, Law Enforcement and Refuge Manager
Residences

FWS is rebuilding these residences with hurricane funds at a cost of approximately $1.6
million. We found that the EOT did not adequately document its decisions to 1) rebuild
rather than repair the residences and 2) expand the residences from 2,000 square feet
to 4,000 square feet of total living space.  

During our site visit to the J.N. “Ding” Darling National Wildlife Refuge, we toured the
residences for the Chief Law Enforcement Officer and the Refuge Manager that are
currently under construction. According to refuge personnel, the previous residences
were damaged in a 2004 hurricane and subsequently demolished. FWS did not provide
an estimate of the cost to repair the residences and bring them into compliance with
current building codes.

When we discussed the residences with members of the EOT, they stood by the
decisions to rebuild and expand these residences. They indicated that the original
houses had significant damage, including extensive mold and that it was a better
decision to rebuild the houses and elevate them to prevent damage from future storms.
Additionally, the Southeast region had developed prototypical models for employee
housing to standardize housing amongst the refuges and to eliminate the time and cost
associated with developing unique designs. The decision was made to replace these
residences with the standard models, which were bigger and more appropriate for a
family of four. Based on the contract cost per square foot for this project, it appears
that FWS spent about $480,000 to expand these buildings.




                                           24
                                                                                            Appendix 6

AUDITEE COMMENTS AND OIG RESPONSE
The following table summarizes the comments to the draft report that we received from FWS,
NPS, and DOI, and our response:


           COMMENTS FROM FWS                                         OIG RESPONSE
Project Management

FWS maintained that it did have adequate            We conducted additional work at FWS Southeast
processes for tracking and accounting for           Region and were provided with additional
hurricane rebuilding projects.                      documentation concerning its tracking and
                                                    accounting for hurricane rebuilding projects. We
                                                    eliminated the finding and related draft
                                                    recommendation from the final report.

Justification for Rebuilding and Expanding

FWS disagreed with our finding related to           We changed the finding to highlight our overall
inadequate justification for rebuilding and         concern that FWS did not adequately document the
expanding certain assets with hurricane funding.    decisions it made to rebuild and expand some of its
It maintained that all decisions to replace         facilities. We updated our report to provide more
facilities rather than repair them were based on    detail on the instances that we questioned –
sound judgment, good repair estimates, and the      including FWS’ anecdotal reasons for making
best professional opinions of various employees.    decisions to rebuild rather than repair and/or
                                                    decisions to expand the size of facilities.
It also noted that many damaged facilities had
to be replaced in order to bring them up to         While FWS’ decisions to rebuild or expand may be
current building codes and requirements.            prudent, it did not adequately conduct analyses and
                                                    document those decisions. Additionally, the decision
Finally, FWS acknowledged the need to ensure        to expand certain facilities were in direct
the health and safety of its employees              contradiction to Director guidance prohibiting the
continuing to work in structures damaged            improvement or upgrade of facilities.
enough to need replacement.
                                                    FWS agreed with our recommendations relating to
                                                    documenting decisions to rebuild and expand
                                                    facilities.

                                                    Subsequent to our draft report FWS conducted
                                                    inspections on damaged buildings that were still
                                                    occupied and deemed them to be safe for employees
                                                    to occupy.

Contract Oversight

FWS believed that it had adequate processes in      We stand by our conclusion that FWS was not
place to oversee contract issues relating to 8(a)   monitoring contractor compliance with subcontractor
small businesses, but agreed that it would be       limitations. We found no formal procedures
prudent to develop and implement more formal        requiring contracting personnel to monitor
procedures for ensuring that contracting officers   compliance and no evidence in the contracting files
comply with these requirements.                     that such monitoring was being performed.


                                                    25
                                                     Additionally, two FWS contracting employees we
                                                     interviewed during the course of our audit work
                                                     stated that they did not know how to monitor this
                                                     compliance. We believe that procedures need to be
                                                     developed and training in this area needs to be
                                                     performed.
Insurance

FWS agreed that its concession contract              FWS’ policy requiring concessioners to have hazard
required the concessioner to maintain property       insurance placed a burden on concessioners to
and hazard insurance and that the concessioner       obtain and pay for these policies that FWS never
complied with the requirement. However, FWS          intended for them to collect. However, because the
disagreed that the proceeds available from that      insurance policy was in place at the time of the
policy should be collected based on the concept      hurricanes and we have confirmed that proceeds in
that the government is a “self-insurer.”             the amount of $153,000 are available, we maintain
                                                     that these proceeds should be collected and used to
                                                     reduce the taxpayer burden for rebuilding this
                                                     facility.

Wasted Funds

FWS disagreed with the heading “Wasted Funds”        We deleted the category of “Wasted Funds.” After
on the table of monetary impacts and asked that      our visit to to the FWS Southeast Region, we
we change the title to more closely reflect the      determined that the rebuilding and expansion of
issues we noted in our audit report.                 hurricane damaged structures may have been
                                                     appropriate but this could not be evaluated because
                                                     FWS did not create adequate support for their
                                                     decisions to rebuild and expand.

           COMMENTS FROM NPS                                          OIG RESPONSE
NPS Rebuilding Progress

NPS clarified some issues relating to its planning   We amended our final report to address the
and approval process. For example, it had            additional information provided by NPS concerning
generally reduced the planning and design            its construction approval process – however, we
phase to 1½ years instead of the standard 3          remain concerned that rebuilding progress has been
years and had not applied some of the additional     slow.
evaluation steps included in the standard 5 year
process.

NPS provided some updated information on
projects that we highlighted in our report. This
updated information included several contract
awards and the actions it had already taken or
planned to take to address our audit
recommendations. For example:

  •   Its list of top priority projects has
      increased from 40 to 43. As of April 2008,
      22 of those 43 projects had been
      completed and 18 were in progress.

  •   Construction for the Big Loop road in Big
      Cypress is now scheduled for January

                                                     26
      2009.

  •   The construction for the West Ship Island
      is now expected to be completed by June
      2009.

  •   A construction contract for the Jean Lafitte
      National Historical Park and Preserve is
      scheduled for issuance in September
      2008.

Contract Oversight

NPS also stated that it could not find any           We did not find any specific instances of non-
instances where an 8(a) prime contractor did         compliance during our work at NPS. However,
not perform the required minimum amount of           because NPS contracting personnel indicated that
work.                                                they were not aware of this requirement, we believe
                                                     that training on this issue may be appropriate.
NPS also stated that it could not respond to the
inappropriate contract action at the DSC or to       These issues are one in the same. The inappropriate
the inappropriate procurement and payment of a       contracting action involved a payment to a
project manager that we detailed in our report,      subcontractor that was not included on the
without further details.                             contract’s list of approved subcontractors. We
                                                     amended the report to provide more detail on the
                                                     issue and OIG personnel provided NPS staff with
                                                     additional information necessary to research this
                                                     issue.


           COMMENTS FROM DOI                                          OIG RESPONSE
In its response, DOI agreed to work with the         We agree that the bureaus need to have processes
bureaus to develop guidance, processes, and          in place to timely notify the DOI when they
procedures to more timely report the status of       materially modify projects and/or project funding
supplemental funding allocations. It further         allocations for which they received funding to
stated that developing these processes and           complete specified projects.
procedures will enable DOI to provide more
timely reports and updates to OMB and
Congress on any changes in funding.




                                                     27
                                                                            Appendix 7



STATUS OF AUDIT RECOMMENDATIONS


 RECOMMENDATION             STATUS                       ACTION REQUIRED
       1          Management concurred with    NPS should provide the name and title
                  recommendation; additional   of the official responsible for completing
                  information is needed.       the corrective action and a planned
                                               completion date.
       2          Management concurred with    NPS should provide the name and title
                  recommendation; additional   of the official responsible for completing
                  information is needed.       the corrective action and a planned
                                               completion date.
       3          Management concurred with    DOI should provide the name and title
                  recommendation; additional   of the official responsible for completing
                  information is needed.       the corrective action and a planned
                                               completion date.
       4          Management concurred with    FWS should provide the name and title
                  recommendation; additional   of the official responsible for completing
                  information is needed.       the corrective action and a planned
                                               completion date.
       5          Management concurred with    FWS and NPS should provide the name
                  recommendation; additional   and title of the official responsible for
                  information is needed.       completing the corrective action and a
                                               planned completion date.
       6          Unresolved.                  FWS should reconsider the
                                               recommendation and provide a
                                               response that indicates concurrence
                                               and/or nonconcurrence and provide
                                               estimated target date and the name
                                               and title of the official responsible for
                                               implementation.
       7          Management concurred with    FWS should provide the name and title
                  recommendation; additional   of the official responsible for completing
                  information is needed.       the corrective action and a planned
                                               completion date.




                                    28
 
 
 
 
 




         




     
